   Pen
     nsion Benefit
           B       Guaran
                        nty Corrporatio
                                      on
           Office
                e of Ins
                       specto
                            or Gen
                                 neral
                      Evalua
                           ation Re
                                  eport




   Fisccal Yearr 2009 Vulnerab
                      V      bility Ass
                                      sessmen nt,
Penetra
      ation Tessting, an
                       nd Socia
                              al Enginneering Report
                                              R




              RESTRICTE
                      ED DISC
                            CLOSU
                                URE
 This document conta  ains privileg
                                  ged and conffidential info
                                                           ormation, an
                                                                      nd was
 producedd at the dire
                     ection of the Pension Benefit
                                              B         Guarranty Corpo
                                                                      oration,
 Office off Inspector General. Itt may not be b disclosed, reproduc   ced, or
 disseminated withoutt the express s permission
                                              n of the Inspe
                                                           ector Genera
                                                                      al.




                            Marrch 2, 20
                                       010
                                                           EVAL-2010--6 / FA-09-64-6
~Clifto
~ Gund~rson LLP
           Cl' rt ified Publ ic AceDun l,,"t, & Con, u ll,m"




Ms. Rebecca Anne Batts
Inspector General
Pension Benefit Guaranty Corporation
1200 K Street, NW.
W ashington, DC 20005-4026

Dear Ms. Batts:

We are pleased to provide the Fiscal Year (FY) 2009 Vulnerability Assess ment, Penetr ation
Testing , and Social Engineering Report, detailing the results of our review of the Pension
Benefit Guaranty Corporation (PBGe) information security infrastructure. The scope of our
engage ment included conducting vulnerability assessments and penetrat ion testing on PBGe
systems. Our assessment was performe d from July 16, 2009 throu gh August 28 ,2009.

In accordance with the Rules of Engagement negotiated with the PBGe Office of Inspector
General (D IG), we conducted social engineering, and external and internal vulnerability
assessments to discover possible weaknesses in PBGC's logical security controls and to exploit
discovered vulnerabilities. The goal of our assessment was to determine the degree of control
PBGC could expect an attacker to achieve after a successful penetration. During our
assessment, we discovered live hosts residing on external and internal PBGC networks and
conducted overt and covert vulnerability assessments on IP addresses in use. We obtained
approval prior to exploitation of discovered vulnerabilities to attempt to gain access to sensitive
data .

We found major issues of concern and suggested that management:

     •     Ensure that PBGC systems have the most current patches and updates for all systems,
           and
     •     Implement standardized procedures, including best practices to strengthen or harden the
           configuration of PBGC's operating systems and applications.

To avoid duplication, specific recommendations are not included in this report. Instead, specific
recommendations resulting from our penetration testing and vulnerability assessment are
reported in the Report on Internal Controls Related to the Pension Benefit Guaranty
Corporation 's Fiscal Year 2009 and 2008 Financial Statements Audit (AUD-20 10-21FA-09-64-2)
or the planned Fiscal Year 2009 FISMA Independent Evaluation Report, scheduled to be
issued in March 2010.




/1710 BeltJd lle D riu
Suite JOO
Catterton. "Uar)'land 20705
tel: 30 1-93 1-2050                                                                                        .... _... "'
fax: 301 -931-1710                                                             1
                                                               Offices in 17 states and \"Casrungton, DC   I!IIln,,,matioom'l
www.cliftoncpa.com
At the conclusion of our testing, we separately provided detailed information to PBGC
management through the OIG on the results of our penetration testing. In addition, a limited use
PowerPoint presentation summarizing the results of our assessment was provided to
management. A copy of that presentation is attached.




Calverton, Maryland
November 12, 2009


Attachment




                                               2
                                                    Attachment




The presentation summarizing PBGC’s vulnerability
 assessment contains confidential and proprietary
       information and has been redacted.

                        .
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
